No. 20-649

In the
Supreme Court of the United States
LEVEL THE PLAYING FIELD, et al.,
Petitioners,
v.
FEDERAL ELECTION COMMISSION,
Respondent.

CERTIFICATE OF COMPLIANCE
I hereby certify, in accordance with Supreme Court Rule 33.1(h), that the BRIEF OF
AMICUS CURIAE FAIRVOTE IN SUPPORT OF PETITIONERS, contains 5,299
words, excluding the parts of the document exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury the foregoing is true and correct.
Executed: December 14, 2020
/s/ William P. Tedards, Jr.
WILLIAM P. TEDARDS, JR.
Counsel of Record
1101 30th Street, NW, Suite 500
Washington, DC 20007
(202) 744-1214
BT@tedards.net
Counsel for Amicus Curiae FairVote

